TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Improvements Have Been Made, but
                     Additional Actions Could Ensure That
                    Section 527 Political Organizations More
                      Fully Disclose Financial Information



                                         February 4, 2010

                              Reference Number: 2010-10-018




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  February 4, 2010


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Improvements Have Been Made, but Additional
                                Actions Could Ensure That Section 527 Political Organizations More
                                Fully Disclose Financial Information (Audit # 200910010)

 This report presents the result of our review of the filing compliance of Section 527 political
 organizations. 1 The overall objective of this review was to determine whether the Internal
 Revenue Service (IRS) had taken the corrective actions needed to develop an effective program
 to identify and address noncompliant Section 527 organizations. This review was conducted as
 part of the Treasury Inspector General for Tax Administration Fiscal Year 2009 Annual Audit
 Plan related to the major management challenge of Tax Compliance Initiatives.

 Impact on the Taxpayer
 Section 527 tax-exempt political organizations 2 (hereafter referred to as political organizations)
 that desire to be tax exempt must report their contributions and expenditures to the IRS
 periodically. Although the Exempt Organizations (EO) function has taken action to identify
 noncompliant political organizations, we believe EO function management should focus on
 increased enforcement actions for noncompliant political organizations. With additional focus,
 the EO function will promote the full and accurate disclosure of political organizations’ financial
 information, which will help the public gain an accurate understanding of political organizations’
 activities (e.g., tracking the flow of funds related to legislative issues and political campaigns).



 1
  Internal Revenue Code Section 527 (2007).
 2
  Political organizations include political parties; campaign committees for candidates for Federal, State, or local
 office; and political action committees.
                    Improvements Have Been Made, but Additional Actions Could
                     Ensure That Section 527 Political Organizations More Fully
                                  Disclose Financial Information



Synopsis
The IRS has taken significant actions to improve its ability to identify political organizations that
do not timely notify the IRS of their existence or timely submit reports of their contributions and
expenditures. However, the IRS has not fully addressed noncompliance among political
organizations. For example, one out of every four Political Organization Report of Contributions
and Expenditures (Form 8872) that we reviewed had incomplete or missing contributor or
recipient information. While some of these filings may later be deemed acceptable, we
determined the IRS is not reviewing these filings to determine if they are complete or if penalties
should be assessed. Also, the IRS is not always issuing notices at the appropriate time that
include all information needed by political organizations to become compliant. Lastly, the IRS is
not following up on information it has requested from political organizations to verify
compliance.
After our prior review completed in Fiscal Year 2005, 3 the EO function focused its efforts on
completing actions that would better enable it to identify noncompliant political organizations.
These included establishing new electronic tax accounts to track the activity of political
organizations filing Political Organization Notice of Section 527 Status (Form 8871) and
Forms 8872, issuing notices to inform political organizations of untimely and missing
Forms 8871 and 8872, providing more detailed instructions to political organizations that
improved the completeness of Form 8872 filings, and performing a compliance project focused
on the filing compliance of Qualified State or Local Political Organizations.
Although the EO function has taken action to identify noncompliant political organizations, we
believe EO function management should focus on addressing noncompliance through increased
enforcement actions. The assessment of taxes and penalties for incomplete filings, when
appropriate, could lead to increased accountability and disclosure by political organizations.
Improvement in the notice process could also assist political organizations in complying with
their responsibilities.

Recommendations
We recommended that the Director, EO, Tax Exempt and Government Entities Division,
1) conduct periodic reviews to determine whether political organizations are submitting complete
Forms 8872, 2) develop procedures for reviewing responses and following up on nonresponses to
notices, including assessing additional tax or penalties as appropriate, 3) correct untimely and
missing Form 8872 notices, and 4) revise forms and instructions for Forms 8871 and 8872 to
improve compliance.

3
 Additional Actions Are Needed to Ensure Section 527 Political Organizations Publicly Disclose Their Activities
Timely and Completely (Reference Number 2005-10-125, dated August 10, 2005).
                                                                                                                  2
                    Improvements Have Been Made, but Additional Actions Could
                     Ensure That Section 527 Political Organizations More Fully
                                  Disclose Financial Information



Response
The Commissioner, Tax Exempt and Government Entities Division, generally agreed with our
recommendations and provided planned actions to address them. Specifically, the
EO Examination function is developing procedures for performing periodic reviews of a sample
of Forms 8872 for compliance as well as procedures for reviewing reports of notices generated
and notice responses. In addition, a request for changes to untimely and missing Form 8872
notices is being prepared for submission to the Modernization and Information Technology
Services organization. Also, revisions to Form 8871 instructions will be completed to clarify
how to report any tax due to untimely filing. The EO Rulings and Agreements function will
evaluate the resources required to implement the recommended changes to Form 8872 and the
Master File, 4 and initiate changes where it is reasonable to do so.
While Tax Exempt and Government Entities Division management agreed with our findings and
recommendations, they believed that our outcome measure of $5.3 million related to additional
tax and penalties for Section 527 political organizations that either received contributions before
filing Form 8871 with the IRS or filed an incomplete or late Form 8872 with the IRS may be too
high. Tax Exempt and Government Entities Division management responded that the EO
function’s examination experience related to incomplete filings of Forms 8872 suggested
otherwise. Even before the publication of a safe harbor for establishing reasonable cause, nearly
all Section 527 political organizations were able to demonstrate that their failure to disclose all
required information was due to reasonable cause, and therefore no penalty was due under
Section 527(l). Management’s complete response to the draft report is included as Appendix V.

Office of Audit Comment
Regarding the IRS’ comment on the outcome measure, the $5.3 million represents the total
amount of additional tax and penalties that could be assessed for the untimely filing of
Forms 8871 and 8872 ($1.9 million) and incomplete filing of Forms 8872 ($3.4 million). While
we recognize that some of this amount may not be assessed due to reasonable cause, we could
not quantify the lesser amount because the IRS has not conducted enforcement actions on these
filings to determine the reasons for the noncompliance. Until appropriate enforcement action is
taken on noncompliant political organizations, there is an increased risk that these organizations
may continue to submit untimely and incomplete Forms 8871 and 8872 for which additional tax
and penalties would be appropriate. As a result, we believe the $5.3 million outcome measure is


4
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.



                                                                                                                  3
                  Improvements Have Been Made, but Additional Actions Could
                   Ensure That Section 527 Political Organizations More Fully
                                Disclose Financial Information


still an accurate reflection of the amount of additional taxes and penalties that could potentially
be assessed.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have any questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




                                                                                                      4
                       Improvements Have Been Made, but Additional Actions Could
                        Ensure That Section 527 Political Organizations More Fully
                                     Disclose Financial Information




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Exempt Organizations Function Has Improved Its Ability to
          Identify Noncompliant Political Organizations ............................................Page 4
          Additional Actions Are Necessary to Address Noncompliance of
          Political Organizations and Create an Effective Oversight Program............Page 7
                    Recommendations 1 and 2: ..............................................Page 13

                    Recommendations 3 and 4: ....................................................... Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Outcome Measures...............................................................Page 20
          Appendix V – Management’s Response to the Draft Report .......................Page 24
      Improvements Have Been Made, but Additional Actions Could
       Ensure That Section 527 Political Organizations More Fully
                    Disclose Financial Information




                    Abbreviations

EO            Exempt Organizations
IRS           Internal Revenue Service
                     Improvements Have Been Made, but Additional Actions Could
                      Ensure That Section 527 Political Organizations More Fully
                                   Disclose Financial Information




                                              Background

Section 527 tax-exempt political organizations 1 (hereafter referred to as political organizations)
are organized and operated primarily to accept contributions and make expenditures for the
purpose of influencing the selection, nomination, election, or appointment of any individual to
Federal, State, or local public office. Although contributions are not deductible by the
contributor, political organizations that notify the Internal Revenue Service (IRS) of their
existence under Section 527 of the Internal Revenue Code 2 may treat the contributions as
tax-exempt income. 3
In Calendar Year 2000, Congress believed there was a need
for additional public disclosure of political organizations’          Congress believed that public
financial activities. A House of Representatives Committee               disclosure of information
       4
Report states, “. . . the Committee believes that, given the tax       enables   the general public to
                                                                     provide oversight of the political
benefits conferred under present law . . . , the public interest is  activities of Section 527 political
served by greater public disclosure of information relating to                  organizations.
the political activities of such organizations, including a
detailed listing of expenditures for political activities and the
source of funds (i.e., contributions) used for this purpose. Public disclosure of information
enables the general public to provide oversight of the political activities of these organizations.”
To ensure information on the activities of political organizations was disclosed to the public,
Congress enacted Public Law 106-230 on July 1, 2000. This law imposed new reporting and
disclosure requirements on political organizations in connection with their tax-exempt status. In
general, the law required that tax-exempt political organizations notify the IRS of their existence
and provide periodic reports of contributions and expenditures to the IRS.
On November 2, 2002, Public Law 107-276 was enacted, amending Section 527. The law
revised the filing requirements for some tax-exempt political organizations retroactive to
July 1, 2000, and created a new category of political organization called a Qualified State or
Local Political Organization. These organizations are required to notify the IRS of their
existence, but report their contribution and expenditure information to their respective States
instead of the IRS. In addition, the law required organizations meeting certain conditions to


1
  Political organizations include political parties; campaign committees for candidates for Federal, State, or local
office; and political action committees.
2
  Internal Revenue Code Section 527 (2007).
3
  Other types of tax-exempt organizations may perform limited political activities. Our focus was on
Section 527 political organizations.
4
  Full and Fair Political Activity Disclosure Act of 2000 (House Report 106-702, dated June 27, 2000).
                                                                                                                Page 1
                                 Improvements Have Been Made, but Additional Actions Could
                                  Ensure That Section 527 Political Organizations More Fully
                                               Disclose Financial Information



electronically file a Political Organization Notice of Section 527 Status (Form 8871) and
Political Organization Report of Contributions and Expenditures (Form 8872) with the IRS. The
IRS posts these forms on a web site available to the public.
Political organizations inform the IRS of their establishment by filing a Form 8871. If the
organization meets certain criteria, it is required to file a Form 8872 with the IRS to report the
contributions it receives and expenditures it makes. The filing requirements for Form 8872
change from year to year. Organizations choose the schedule to use each year, but must follow
the selected schedule for the entire calendar year. Figure 1 shows the Form 8872 filing
requirements.
                                            Figure 1: Form 8872 Filing Schedule
                                    Odd-Numbered Years                      Even-Numbered Years
                                  Semi-Annually or Monthly                  Monthly 5 or Quarterly 6
                               Source: Internal Revenue Code Section 527.

The Center for Responsive Politics 7 reported the money raised by political organizations during
the last three election cycles. As shown in Figure 2, political organizations raised more than
$500 million in the last 2 Presidential election cycles and close to $400 million in the last
Federal, non-Presidential election cycle.
    Figure 2: Section 527 Political Contributions by Election Cycle (in millions)


                               2008
                                                                                           $506
              Election Cycle




                               2006
                                                                               $385



                               2004
                                                                                                    $599

                                      $0      $100      $200      $300        $400     $500       $600     $700

                                                           Contributions (in millions)

            Source: The Center for Responsive Politics. This information was not independently verified
            because the accuracy of these statistics did not affect the accomplishment of our audit objective.



5
  Not required for October or November. Instead, pre- and post-general election reports are required.
6
  Pre- and post-general election reports may be required.
7
  The Center for Responsive Politics is a nonprofit research group tracking money in United States politics and its
effect on elections and public policy.
                                                                                                                  Page 2
                     Improvements Have Been Made, but Additional Actions Could
                      Ensure That Section 527 Political Organizations More Fully
                                   Disclose Financial Information



In two prior audit reports of political organizations, 8 we identified areas where the IRS could
improve 1) the accuracy and consistency of search results for information stored on the web site
for political organizations and 2) the timeliness and completeness of political organization’s
public disclosure of financial information. The IRS agreed to our recommendations to provide
improved instructions for completing required filings, assessing taxes and penalties for political
organizations that filed late or incomplete Forms 8871 and 8872, and conducting a project to
ensure the compliance of Qualified State or Local Political Organizations. The IRS did not agree
with our estimated additional tax and penalty calculations because it believed most would be
waived due to reasonable cause. 9
As we were completing our current audit work, the Exempt Organizations (EO) function was
developing its Fiscal Year 2010 Work Plan. Any changes that have occurred since we concluded
our audit work in September 2009 are not reflected in this report. As a result, this report may not
reflect the current status of the EO function’s program for overseeing political organizations.
This review was performed at the Tax Exempt and Government Entities Division National
Headquarters in Washington, D.C., and also included interviews of Modernization and
Information Technology Services organization and Tax Exempt and Government Entities
Division Business Systems Planning function personnel during the period March through
September 2009. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




8
  Improvements Are Needed to the Updated Web Site for Political Organizations to Increase the Accuracy and
Consistency of Search Results for Filing Information (Reference Number 2004-10-097, dated May 6, 2004) and
Additional Actions Are Needed to Ensure Section 527 Political Organizations Publicly Disclose Their Activities
Timely and Completely (Reference Number 2005-10-125, dated August 10, 2005).
9
  Reasonable cause is based on all the facts and circumstances in each situation and allows the IRS to provide relief
from a penalty that would otherwise be assessed. Reasonable cause relief is generally granted when a taxpayer
exercises ordinary business care and prudence in determining his or her tax obligations but is unable to comply with
those obligations.
                                                                                                             Page 3
                  Improvements Have Been Made, but Additional Actions Could
                   Ensure That Section 527 Political Organizations More Fully
                                Disclose Financial Information




                                 Results of Review

The IRS has taken significant actions to improve its ability to identify political organizations that
do not timely notify the IRS of their existence or timely submit reports of their contributions and
expenditures. However, the IRS has not fully addressed noncompliance among political
organizations. For example, one out of every four Forms 8872 that we reviewed had incomplete
or missing contributor or recipient information. While some of these filings may later be deemed
acceptable, we determined the IRS is not reviewing these filings to determine if they are
complete or if penalties should be assessed. Also, the IRS is not always issuing notices at the
appropriate time that include all information needed by political organizations to become
compliant. Lastly, the IRS is not following up on information it has requested from political
organizations to verify compliance.
After our Fiscal Year 2005 review was completed, the EO function focused its efforts on
completing actions that would better enable it to identify noncompliant political organizations.
These included establishing new electronic tax accounts to track the activity of political
organizations filing Forms 8871 and 8872, issuing notices to inform political organizations of
untimely and missing Forms 8871 and 8872, providing more detailed instructions to political
organizations that improved the completeness of Form 8872 filings, and performing a
compliance project focused on the filing compliance of Qualified State or Local Political
Organizations.
Although the EO function has taken action to identify noncompliant political organizations, we
believe EO function management should focus on addressing noncompliance through increased
enforcement actions. The assessment of taxes and penalties for incomplete filings, when
appropriate, could lead to increased accountability and disclosure by political organizations.
Improvement in the notice process could also assist political organizations in complying with
their responsibilities. With additional focus, the EO function will promote the full and accurate
disclosure of political organizations’ financial information, which will help the public gain an
accurate understanding of political organizations’ activities (e.g., tracking the flow of funds
related to legislative issues and political campaigns).

The Exempt Organizations Function Has Improved Its Ability to
Identify Noncompliant Political Organizations

The EO function has taken significant actions to improve its program to identify noncompliant
political organizations since our last audit, including taking corrective actions to our prior
recommendations. The following are some of the improvements that we noted.

                                                                                              Page 4
                    Improvements Have Been Made, but Additional Actions Could
                     Ensure That Section 527 Political Organizations More Fully
                                  Disclose Financial Information



     •   Creating Master File 10 accounts and issuing notices – In Calendar Year 2006, the IRS
         established Master File accounts for political organizations filing Forms 8871 and 8872.
         This allowed the EO function to systemically monitor the filing compliance of political
         organizations, which it could not do before. The EO function also began issuing three
         different notices for missing Forms 8871 and untimely or missing Forms 8872 using the
         information from these Master File accounts.
     •   Updating Instructions for Forms 8871 and 8872 – In Calendar Year 2007, the
         EO function updated the instructions for Forms 8871 and 8872. Among the changes to
         the Form 8872 instructions were more detailed explanations for what to input in specific
         fields for contributions and expenditures. For example, the instructions state that
         organizations should input “Retired” for a contributor’s occupation if applicable or “Not
         Employed” in the Employer field for those contributors or recipients that are
         unemployed. Prior to these more detailed instructions, political organizations commonly
         used “Not Applicable” in these fields, which were considered incomplete entries. When
         “Not Applicable” is used, readers cannot fully determine who employed the contributor
         or recipient or the occupation of the contributor or recipient.
     We determined that the changes to the Form 8872 instructions helped improve the
     completeness of the filings and provided the public with fuller disclosure of financial
     information. During our Fiscal Year 2005 audit, we reviewed 299 Forms 8872 and identified
     4,382 incomplete entries for either contributions or expenditures. During this audit, we
     reviewed 300 Forms 8872 and identified only 1,287 incomplete entries. We concluded that
     this increase in compliance is partly due to the improved Form 8872 instructions, which
     reduced the number of entries that included the term “Not Applicable.” 11 Figure 3 displays
     the number of incomplete entries for contributions and expenditures from our prior audit and
     the current audit.




10
   The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
11
   See Appendix IV for additional details.
                                                                                                            Page 5
                                                  Improvements Have Been Made, but Additional Actions Could
                                                   Ensure That Section 527 Political Organizations More Fully
                                                                Disclose Financial Information



          Figure 3: Number of Incomplete Contribution and Expenditure Entries
                     (Prior Audit [2005] versus Current Audit [2009])

                                          5,000
                                                                4,382
                                          4,500
           Number of Incomplete Entries




                                          4,000
                                          3,500
                                          3,000
                                          2,500
                                          2,000
                                                                                            1,287
                                          1,500
                                          1,000
                                           500
                                             0
                                                          Prior Audit (2005)         Current Audit (2009)

         Source: Treasury Inspector General for Tax Administration analysis of statistical samples of
         Form 8872 filings.

     •   Providing guidance to political organizations – As a result of a compliance project 12
         performed by the EO function and the Treasury Inspector General for Tax
         Administration’s prior recommendation, 13 the EO function issued a revenue procedure in
         Calendar Year 2007 providing guidelines for political organizations that do not have all
         the required information necessary to complete their Forms 8872. Revenue Procedure
         2007-27 outlines six requirements for organizations to meet in order to claim “reasonable
         cause” for failure to report all required information about their contributors. Not meeting
         all six requirements may be considered willful neglect for the incomplete filings and a
         penalty could be assessed. Political organizations requested this guidance to help ensure
         their filing compliance.
     •   Reviewing Qualified State or Local Political Organizations – Based on a sample of
         Forms 8871 and associated State statutes that we reviewed in our Fiscal Year 2005 audit,
         we identified one State where the dollar threshold for reporting contributions was higher




12
   In Calendar Year 2004, the EO function performed a compliance project involving 30 Forms 8872 filings that
were either incomplete or untimely. The reasonable cause criteria available at the time was used to determine if a
penalty was warranted. ****1****.
.
13
   The Treasury Inspector General for Tax Administration recommended that the EO function ensure taxes and
penalties are assessed, as appropriate, for political organizations that file late and incomplete Forms 8871 and 8872.
                                                                                                              Page 6
                     Improvements Have Been Made, but Additional Actions Could
                      Ensure That Section 527 Political Organizations More Fully
                                   Disclose Financial Information



         than those established under Section 527 for Qualified State or Local Political
         Organizations. 14
         As a result, we were concerned that there may be other States that have reporting
         requirements that are not consistent with the Internal Revenue Code, which means that
         political organizations in some States may not be sending financial information to the
         IRS as required. We recommended that the Director, EO, Tax Exempt and Government
         Entities Division, research State laws to determine whether the dollar thresholds for other
         States complied with Federal law. In response, the EO function conducted a compliance
         project related to the filing compliance of Qualified State or Local Political
         Organizations. As part of this project, research was conducted on political organization’s
         filing requirements for seven States to determine whether they complied with Federal
         filing requirements. The EO function reported that all seven States complied with
         Section 527 filing requirements for organizations to maintain their Qualified State or
         Local Political Organization status. As part of our current audit, we reviewed the statutes
         of all 50 States and, other than the 1 State identified in our prior review, did not identify
         any additional States whose reporting thresholds did not comply with Federal law.
In addition to reviewing actions taken by the EO function, we reviewed statistical samples of
Forms 8871 and 8872 to determine, in part, whether political organizations were timely filing
these reports. Generally, organizations are timely filing their required reports. For Forms 8871,
we found 97.5 percent of our sampled filings were timely. For Forms 8872, 99.4 percent of our
sampled filings were timely.
Actions taken by the EO function have helped improve the IRS’ ability to identify noncompliant
political organizations and to notify potentially noncompliant organizations of their filing
requirements. However, additional actions are necessary to fully develop an effective oversight
program including necessary enforcement efforts to address noncompliance.

Additional Actions Are Necessary to Address Noncompliance of
Political Organizations and Create an Effective Oversight Program
Although the EO function has developed tools for identifying noncompliance of political
organizations that do not publicly disclose financial information as required, additional actions
are necessary to develop a complete oversight program that includes enforcement efforts, when
necessary, to address noncompliance. Specifically, the IRS does not:
     •   Review reports containing political organizations’ contributions and expenses to
         determine whether they are complete and if penalties should be assessed.

14
  Political organizations can declare Qualified State or Local Political Organization status if they meet certain
requirements and file their financial information with the applicable State. Each State has its own filing
requirements for political organizations separate from Section 527.
                                                                                                               Page 7
                     Improvements Have Been Made, but Additional Actions Could
                      Ensure That Section 527 Political Organizations More Fully
                                   Disclose Financial Information



     •   Ensure notices are issued correctly and contain referenced information. In some
         instances, notices for failing to file Forms 8872 are being issued for tax periods the
         political organizations are not required to file for and, in other cases, are not being issued
         when they are required.
     •   Review political organizations’ responses to notices and follow up with political
         organizations that do not respond to notices.
In addition, we have identified actions the IRS could take to improve compliance without
long-term resource commitments. These include clarifying instructions to forms and
automatically penalizing political organizations for intentionally withholding required
information about contributions and expenses.

The IRS is not reviewing electronically submitted Forms 8872 for completeness
The EO function is not able to systemically review Forms 8872 to determine whether political
organizations are including complete contribution and expenditure information. Only summary
dollar totals for all contributions and expenditures included on a particular filing are available on
the Master File accounts of political organizations, so a manual review of each Form 8872 would
be required to determine whether it is complete. As a result, the IRS cannot issue notices to
inform political organizations of incomplete filings.
In 77 (26 percent) of 300 cases we reviewed, some required contribution and expenditure
information was missing on the Forms 8872. 15 Some of these filings may later be deemed
acceptable due to compliance with the provisions of Revenue Procedure 2007-27. Missing
information usually involved a contributor or recipient’s employer and/or occupation. We
project an estimated 320 Forms 8872 were filed in Calendar Year 2008 that did not include all
required information. As a result, more than $9.8 million in contributions and expenditures 16
were estimated to be reported with incomplete information. We estimate more than $3.4 million
in penalties may be due for these incomplete filings.
The IRS has the legal authority to impose a 35 percent penalty if a political organization fails to
file Form 8872 by the due date or if it does not provide all the required information. Section 527
requires political organizations to report the name, address, and if an individual, the employer
and occupation for all its contributors and recipients. The penalty is 35 percent of the total
amount of contributions and expenditures not properly reported. The penalty can be waived if
the political organization establishes reasonable cause that the untimely or incomplete filing was
not due to willful neglect.

15
   We did not consider entries with terms like “Information Requested” as incomplete based upon Revenue
Procedure 2007-27. In addition, because organizations are not required to disclose contributions totaling less than
$200 in the aggregate to date for the year from the same contributor and expenditures less than $500 to the same
recipient, we did not consider entries incomplete if they fell below these thresholds.
16
   See Appendix IV for additional details.
                                                                                                             Page 8
                       Improvements Have Been Made, but Additional Actions Could
                        Ensure That Section 527 Political Organizations More Fully
                                     Disclose Financial Information



Revenue Procedure 2007-27 provides criteria for determining whether a political organization
can claim reasonable cause for not providing all the required contributor information on its
Forms 8872. This guidance provides political organizations with a way to establish that their
failure to disclose required information was due to reasonable cause and not due to willful
neglect. As mentioned previously, Revenue Procedure 2007-27 was issued as a result of an
EO function compliance project and a Treasury Inspector General for Tax Administration audit
recommendation. The EO function has not repeated this compliance project using this new
guidance, and compliance characteristics may have changed since the last compliance project.
EO function management informed us that after our prior review, they wanted to make
incremental improvements to the program. Initial efforts have focused on creating Master File
accounts and issuing notices.
Without complete contribution and expenditure information, the public cannot gain an accurate
understanding of a political organization’s financial position, track the flow of funds related to
legislative issues and political campaigns, or determine the level of a political organization’s
support from contributors in specific occupations or that work for specific employers.
Incomplete Forms 8872 do not provide the public with all the necessary information to determine
who is giving funds to the political organization and how the organization is using those funds.
This information helps potential contributors determine whether they want to support a particular
political organization.

Notices are not always being issued correctly
The EO function developed notices for three different noncompliance issues: missing
Forms 8871, untimely filed Forms 8872, and missing Forms 8872. We identified three concerns
with the issuance of the missing or untimely filed Form 8872 notices that would unnecessarily
increase taxpayer burden or not inform political organizations about missing filings.
1. Some organizations are receiving a missing Form 8872 notice for a tax period prior to
   their creation date. The computer program used to generate the missing Form 8872 notice
   does not take into consideration the creation date of the organization when determining
   whether a notice should be issued. For example, a political organization is created in
   May 2008 and files its Form 8871 with the IRS. The organization files its first required
   Form 8872 for the second quarter ending June 2008. However, a notice is subsequently
   issued to the organization for a missing Form 8872 that covers the first quarter ending
   March 2008. Since the organization was not created until May 2008, a first quarter
   Form 8872 was not required. We estimate that 362 missing Form 8872 notices were issued
   in Calendar Year 2008 to political organizations that were not required to file, thereby
   increasing taxpayer burden. 17



17
     See Appendix IV for additional details.
                                                                                           Page 9
                       Improvements Have Been Made, but Additional Actions Could
                        Ensure That Section 527 Political Organizations More Fully
                                     Disclose Financial Information



2. Some political organizations may not be receiving a notice for failure to file a required
   Form 8872. Political organizations that choose to file on a monthly basis during a
   nonelection year will not receive a missing Form 8872 notice for forms not filed for
   October and November. In addition, organizations that did not file a Form 8872 for the last
   quarter of Calendar Year 2008 also did not receive a missing Form 8872 notice.
   IRS officials stated that this could be occurring because computer codes needed to identify
   what reporting time period is being used by political organizations are reset at the beginning
   of the calendar year, prior to the generation of the notices. During our case reviews, we
   identified 22 organizations that did not file and did not receive a missing Form 8872 notice
   for the last quarter of Calendar Year 2008 as required. 18 By not sending out these notices, the
   IRS is not ensuring political organizations comply with the Internal Revenue Code.
3. Notices for untimely or missing Forms 8872 did not identify the relevant tax period.
   The body of the notices for untimely and missing Forms 8872 refers to “the above referenced
   period.” However, the IRS does not inform the taxpayer which Form 8872 was untimely or
   missing on the notice. We found several examples of responses to notices issued in Calendar
   Year 2008 where taxpayers commented that the notice does not inform them which filing
   was untimely. For example, **************************1***********************
   *****. Similarly, ****************************1****************************
   ***************1******************. The IRS was not reviewing these responses and,
   therefore, was not aware of this issue. From Calendar Year 2006 through Calendar
   Year 2008, the IRS had issued more than 2,950 untimely and missing Forms 8872 notices
   without the related tax period information, thereby creating additional taxpayer burden. 19

The IRS is not reviewing political organizations’ responses to notices or following
up when political organizations do not respond to notices
Notices are issued for missing Forms 8871 and 8872 and untimely Forms 8872. However, the
EO function does not fully use these tools to enforce compliance. Political organizations are
asked to reply to notices and provide a reasonable cause explanation for filing their Forms 8872
untimely, or not filing their Forms 8871 or 8872 at all. However, the EO function is not
reviewing these responses and determining whether the reasonable cause explanations are
acceptable. Organizations that do not provide acceptable reasonable cause explanations should
be reporting any contributions received during the untimely period for Forms 8871 as income or
be assessed penalties for the untimely or missing Forms 8872. In addition, we identified
24 organizations that received 91 notices for untimely and/or missing Forms 8872 during
Calendar Year 2008. Organizations that received multiple notices for untimely or missing filings
could be considered willfully neglecting their filing responsibilities and warrant penalties being


18
     See Appendix IV for additional details.
19
     See Appendix IV for additional details.
                                                                                           Page 10
                       Improvements Have Been Made, but Additional Actions Could
                        Ensure That Section 527 Political Organizations More Fully
                                     Disclose Financial Information



assessed. Further, the EO function is not taking any followup action if political organizations
simply do not respond to these notices.
The IRS has the legal authority to assess taxes and penalties if a political organization fails to file
Forms 8871 or 8872 by the due date or if it does not provide all the required information on the
Form 8872. The tax or penalty can be waived if the political organization establishes reasonable
cause that the untimely or incomplete filing was not due to willful neglect.
Procedures for making reasonable cause determinations based upon Forms 8871 and 8872 notice
responses were not in place. However, we identified some procedures for the processing of
notice responses. EO Entity function employees at the Ogden Submission Processing Center
reviewed the responses and updated Master File accounts as needed. For example, an
organization could have claimed Qualified State or Local Political Organization status as its
reason for not filing a Form 8872. The EO Entity function would have updated the filing
requirements on the organization’s Master File account to reflect this change. However, we did
not locate any EO function procedures for making a reasonable cause determination based upon
the explanations in the notice responses provided by the political organizations. In addition,
there are no procedures for following up with political organizations that do not respond to the
notices.
Although notices are being issued, the EO function has not followed through and enforced
compliance when necessary due to a lack of procedures. As a result, this enforcement tool is not
being used to its fullest extent. Without providing consequences for untimely or missing filings,
the EO function may not be fully encouraging political organizations to voluntarily comply with
their filing responsibilities. In fact, political organizations may become more noncompliant if
they do not respond to these notices and the IRS does not follow up. Although
Form 8872 filings were generally timely (99.4 percent), we estimate that more than $434,000 in
penalties could have been assessed from untimely filings in Calendar Year 2008. 20

The IRS could improve compliance by making changes that do not involve
long-term resource commitments
The IRS could take some additional steps to help political organizations better comply with their
Forms 8871 and 8872 reporting requirements and assess additional taxes and penalties, as
appropriate. We identified two opportunities to increase compliance efforts that would not
involve the commitment of long-term resources.
1. Clarifying Form 8871 Instructions – Generally, political organizations are filing their
   Forms 8871 timely. However, we identified 5 of 203 cases in our sample (from a universe of
   1,985 filings) with untimely filed Forms 8871 that received contributions prior to filing
   Form 8871 and did not file a U.S. Income Tax Return for Certain Political Organizations


20
     See Appendix IV for additional details.
                                                                                              Page 11
                    Improvements Have Been Made, but Additional Actions Could
                     Ensure That Section 527 Political Organizations More Fully
                                  Disclose Financial Information



     (Form 1120-POL). We estimate that $1.4 million in additional taxes could have been
     collected from political organizations in 2008. 21
     Section 527 requires political organizations that do not file their Forms 8871 timely to
     include in their taxable income any exempt function income received during the untimely
     period. However, the Form 8871 instructions are unclear on where to report the taxable
     income earned during the untimely period. The instructions state, “In addition, the taxable
     income of the organization for that period . . . will be computed by including its exempt
     function income.” More detailed Form 8871 instructions on where to report this taxable
     income (on the Form 1120-POL) would help political organizations voluntarily comply with
     their filing requirements. Although this change would involve an initial outlay of resources
     to revise the instructions, there would be no long-term resource commitment.
2. Automatically Penalizing “Withheld” Entries – Political organizations are intentionally
   withholding required information regarding their contributions and expenditures from
   Forms 8872. As discussed earlier, the IRS would have to manually review Forms 8872 to
   identify most incomplete filings. However, changes to the Form could help improve the
   identification of a specific incomplete entry that should be automatically assessed penalties
   (reasonable cause criteria does not apply). Political organizations can choose not to disclose
   information for individual contributors and recipients. Form 8872 instructions state to
   include the total dollar amount associated with all of these transactions in a single generic
   “withheld” entry - one related to contributions and another related to expenditures. The
   instructions also state that this amount is subject to a 35 percent penalty for failure to provide
   all the information required.
     The EO function does not have a systemic mechanism to identify and penalize these entries.
     The IRS’ computer system only captures summary dollar totals for all contributions and
     expenditures on a Form 8872 and not the individual entry information. Therefore, only a
     manual review of the Form 8872 could identify “withheld” entries. By requiring political
     organizations to report the total amount of contributions and expenditures where information
     was “withheld” on the first page of Form 8872, the EO function could ensure that this type of
     incomplete entry is properly penalized. Penalizing these entries could also encourage
     political organizations to more fully disclose contributions and expenditures in the future.
     We estimate that 46 Forms 8872 included a “withheld” entry in Calendar Year 2008 with a
     projected total of more than $932,300 in incomplete contributions and expenditures.
     Approximately $326,300 in penalties should have been assessed. 22 Although this would
     involve an initial outlay of resources to make the necessary changes, there would be no
     long-term resource commitment.


21
 See Appendix IV for additional details.
22
 This figure is included in the overall estimated penalty amount and not claimed as a separate outcome. See
Appendix IV for additional details.
                                                                                                         Page 12
                 Improvements Have Been Made, but Additional Actions Could
                  Ensure That Section 527 Political Organizations More Fully
                               Disclose Financial Information



Recommendations
To develop a more effective program for identifying and addressing potentially noncompliant
political organizations, the Director, EO, Tax Exempt and Government Entities Division, should:
Recommendation 1: Conduct periodic compliance projects to determine whether political
organizations are submitting complete Forms 8872 or meeting the relief provisions of Revenue
Procedure 2007-27 and assess penalties as appropriate.
       Management’s Response: IRS management agreed with the recommendation and is
       developing procedures for EO Examination staff to periodically review a sample of
       Forms 8872 for compliance. However, they believed that our outcome measure of
       $5.3 million related to additional tax and penalties for political organizations that either
       received contributions before filing Form 8871 with the IRS or filed an incomplete or late
       Form 8872 with the IRS may be too high. Even before the publication of a safe harbor
       for establishing reasonable cause, nearly all political organizations were able to
       demonstrate that their failure to disclose all required information was due to reasonable
       cause, and therefore no penalty was due.
       Office of Audit Comment: Regarding the IRS’ comment on the outcome measure,
       the $5.3 million represents the total amount of additional tax and penalties that could be
       assessed for the untimely filing of Forms 8871 and 8872 ($1.9 million) and incomplete
       filing of Forms 8872 ($3.4 million). While we recognize that some of this amount may
       not be assessed due to reasonable cause, we could not quantify the lesser amount because
       the IRS has not conducted enforcement actions on these filings to determine the reasons
       for the noncompliance. Until appropriate enforcement action is taken on noncompliant
       political organizations, there is an increased risk that these organizations may continue to
       submit untimely and incomplete Forms 8871 and 8872 for which additional tax and
       penalties would be appropriate. As a result, we believe the $5.3 million outcome
       measure is still an accurate reflection of the amount of additional taxes and penalties that
       could potentially be assessed.
Recommendation 2: Develop procedures for reviewing responses and following up on
nonresponses to notices, including:
   a) Determining whether the reasonable cause explanations provided by political
      organizations in response to notices are sufficient.
   b) Considering whether organizations have received multiple notices, indicating possible
      willful neglect.
   c) Following up with political organizations that do not respond to notices.
   d) Assessing additional tax or penalties, as appropriate.


                                                                                           Page 13
                       Improvements Have Been Made, but Additional Actions Could
                        Ensure That Section 527 Political Organizations More Fully
                                     Disclose Financial Information



           Management’s Response: IRS management agreed with the recommendation and is
           developing procedures for EO Examination function staff to review reports of notices
           generated and responses received and take appropriate action.
Recommendation 3: Correct untimely and missing Form 8872 notices by:
       a) Requesting that programming issues be corrected which allow missing
          Form 8872 notices to be issued for time periods prior to an organization’s creation.
       b) Requesting that programming issues be corrected which cause missing
          Form 8872 notices not to be issued for certain time periods throughout the year.
       c) Initiating a notice change request for the untimely and missing Form 8872 notices to add
          the tax period of the related report to the notices.
           Management’s Response: IRS management agreed with the recommendation and is
           preparing a request to submit to the Modernization and Information Technology Services
           organization to make the recommended changes.
Recommendation 4: Revise forms and instructions for Forms 8871 and 8872 by:
       a) Updating the Form 8871 instructions to include clear guidance on where to report taxable
          income resulting from filing untimely.
       b) Initiating a form change for the Form 8872 to:
           •    Add summary dollar information to the first page of the Form for all “withheld”
                entries reported for contributions and expenditures not fully disclosed.
           •    Request a programming change to capture this new summary information on the
                Master File and automatically assess a 35 percent penalty for any “withheld” amounts
                included on the first page of the Form.
           •    Update Form 8872 instructions to include an explanation for completing this new
                item on the front page of the Form.
           •    Update the Political Organization Filing and Disclosure 23 programming for the
                electronic filing of Forms 8872 to include this new information on the front page of
                the Form.
           Management’s Response: IRS management generally agreed with the
           recommendation and will revise the Form 8871 instructions to clarify how to report any
           taxes due to untimely filing. In addition, IRS management will evaluate the resources
           required to implement the recommended changes to Form 8872 and the Master File, and
           initiate changes where it is feasible to do so.

23
     This is the web site used to file and search for information from political organizations’ Forms 8871 and 8872.
                                                                                                              Page 14
                    Improvements Have Been Made, but Additional Actions Could
                     Ensure That Section 527 Political Organizations More Fully
                                  Disclose Financial Information



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective was to determine whether the IRS had taken the corrective actions needed
to develop an effective program to identify and address noncompliant Section 527
organizations. 1 To accomplish our objective, we:
I.      Assessed any improvements made to the instructions for filing Political Organization
        Report of Contributions and Expenditures (Form 8872).
        A. Interviewed EO function management to identify any changes to the filing
           instructions for Forms 8872.
        B. Reviewed Form 8872 instructions to determine whether clarification had been added
           for required information for Itemized Contributions (Schedule A) and Itemized
           Expenditures (Schedule B).
II.     Identified any changes made in the EO function’s efforts to ensure filing compliance of
        Section 527 political organizations.
        A. Interviewed EO function management to identify any changes to how the IRS
           identifies and addresses filing noncompliance by Section 527 political organizations.
           We ascertained how responses or nonresponses to notices were handled. We also
           reviewed notice responses to identify any issues raised by political organizations and,
           for any issues identified, determined the volume of notices involved.
        B. Reviewed programming change requests for Political Organization Notice of Section
           527 Status (Form 8871) and Form 8872 and compared them to the resulting program
           changes to ensure the requests were implemented.
        C. Requested a Business Master File 2 extract to identify all nonfiled Forms 8871 for the
           period January 1, 2008, through December 31, 2008. We validated a judgmental
           sample of 10 records to ensure the data met our criteria. Based upon this validation,
           we concluded that the data extract met our criteria and could be used to complete our
           audit tests.
        D. Determined whether Section 527 political organizations were receiving notices
           (i.e., Form 8872 Late Notice (249B) or Form 8872 Not Filed Notice (249C)) for late


1
 Internal Revenue Code Section 527 (2007).
2
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                          Page 15
                       Improvements Have Been Made, but Additional Actions Could
                        Ensure That Section 527 Political Organizations More Fully
                                     Disclose Financial Information



               and nonfiled Forms 8872. We validated a judgmental sample of 10 records to ensure
               the data met our criteria. Based upon this validation, we concluded that the data
               extract met our criteria and could be used to complete our audit tests.
           E. Determined the status of any new guidance issued internally or by the Department of
              the Treasury to aid the EO function in overseeing Section 527 political organizations.
III.       Determined whether political organizations filed timely and complete Forms 8871
           and 8872.
           A. Downloaded filing data from the IRS Political Organization Filing and Disclosure
              web site for Forms 8871 and 8872 electronically filed. We validated the data from
              this download to ensure the reliability for our selection of statistical samples to
              review. We validated a judgmental sample of 30 records (15 of each form type) to
              ensure we received accurate information. Based upon this validation, we concluded
              that the data download could be relied upon to select our statistical samples for our
              case reviews.
           B. Selected a statistically valid sample of 203 Forms 8871 from a universe of
              1,985 electronically filed Forms 8871 during the period January 1, 2008, through
              December 31, 2008, from the download obtained in Step III.A. and reviewed the
              cases for timeliness of filings.
           C. Selected a statistically valid sample of 300 Forms 8872 from a universe of
              2,777 electronically filed Forms 8872 during the period January 1, 2008, through
              December 31, 2008, from the download obtained in Step III.A. and reviewed the
              cases for completeness and timeliness of filings.
           D. Computed outcome measures resulting from untimely or incomplete filings of
              Forms 8871 and 8872 during the time period of our review. 3
IV.        Determined the effectiveness of any actions taken to ensure filing compliance by
           Qualified State or Local Political Organizations.
           A. Obtained the results of compliance projects initiated to address the filing compliance
              of Qualified State or Local Political Organizations.
           B. Researched the filing thresholds of each State for Qualified State or Local Political
              Organizations to determine which States have a higher threshold than required by
              Federal law.




3
    See Appendix IV for additional details.
                                                                                              Page 16
                 Improvements Have Been Made, but Additional Actions Could
                  Ensure That Section 527 Political Organizations More Fully
                               Disclose Financial Information



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: Tax Exempt and Government
Entities Division policies, procedures, and practices for planning, managing, and monitoring the
filings of political organizations. We evaluated these controls by interviewing personnel and
reviewing statistical samples of Forms 8871 and 8872.




                                                                                         Page 17
                Improvements Have Been Made, but Additional Actions Could
                 Ensure That Section 527 Political Organizations More Fully
                              Disclose Financial Information



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations Programs)
Troy D. Paterson, Director
Thomas F. Seidell, Audit Manager
Cheryl J. Medina, Lead Auditor
Andrew J. Burns, Senior Auditor
William Simmons, Senior Auditor
David M. Bueter, Auditor
Michael A. McGovern, Auditor
Martha Stewart, Information Technology Specialist




                                                                                  Page 18
                Improvements Have Been Made, but Additional Actions Could
                 Ensure That Section 527 Political Organizations More Fully
                              Disclose Financial Information



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 19
                       Improvements Have Been Made, but Additional Actions Could
                        Ensure That Section 527 Political Organizations More Fully
                                     Disclose Financial Information



                                                                                                  Appendix IV

                                       Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•      Increased Revenue – Potential; $5.3 million in additional tax and penalties for
       Section 527 political organizations that met either of the following conditions: 1) received
       contributions before filing their Political Organization Notice of Section 527 Status
       (Form 8871) with the IRS or 2) filed an untimely or incomplete Political Organization Report
       of Contributions and Expenditures (Form 8872) with the IRS 1 (see page 7).

Methodology Used to Measure the Reported Benefit:
We selected two statistically valid samples and projected the results. The first statistical sample
consisted of 203 Forms 8871 electronically filed between January 1, 2008, and
December 31, 2008, that we randomly selected from a Political Organization Filing and
Disclosure download. The second statistical sample consisted of 300 Forms 8872 electronically
filed between January 1, 2008, and December 31, 2008, that were randomly selected from the
same download. We stratified this sample by the total amounts of contributions and
expenditures reported into 3 strata – low (total contributions and expenditures less than
$400,000), medium (total contributions and expenditures from $400,000 to less than $4 million),
and high (total contributions and expenditures equal to and more than $4 million). Figure 1
shows the size of each universe and sample.




1
    This figure includes the estimated penalty amount of $326,300 related to the incomplete “withheld” entries.
                                                                                                             Page 20
                   Improvements Have Been Made, but Additional Actions Could
                    Ensure That Section 527 Political Organizations More Fully
                                 Disclose Financial Information



                               Figure 1: Statistical Sampling Data
          Sample                        Strata              Size of Universe       Sample Size
 Sample 1 (Forms 8871)                                             1,985               203
 Sample 2 (Forms 8872)              Strata 1 (low)                 2,454               125
                                  Strata 2 (medium)                  273               125
                                    Strata 3 (high)                    50                50
Source: Treasury Inspector General for Tax Administration sampling plan.

We estimated these political organizations may owe $5.3 million in additional tax and penalties.
To arrive at our estimates, we:
1. Projected the results of Sample 1 to the universe and, based on a 95 percent confidence level,
   an actual error rate of 2.5 percent, and a precision rate of +/- 2 percent, estimated 49 political
   organizations filed Form 8871 untimely and may be subject to approximately $1.4 million in
   tax in Calendar Year 2008. The estimated number of political organizations filing an
   untimely Form 8871 was calculated by multiplying the universe of Forms 8871 by the
   percentage of untimely Forms 8871 in our sample (1,985 * .0246 = 49). The $1.4 million in
   taxes was estimated by multiplying the average potential penalty amount for contributions
   received by these political organizations prior to the filing of Forms 8871 by the universe of
   Forms 8871 ($730.05 * 1,985 = $1,449,149.25).
2. Projected the results of Sample 2 (by strata) to each universe and, based on a 95 percent
   confidence level, an actual error rate of 1.4 percent, and a precision rate of +/- 1.9 percent,
   estimated 39 political organizations that filed untimely Forms 8872 may be subject to more
   than $434,000 in penalties in Calendar Year 2008. The estimated number of political
   organizations filing an untimely Form 8872 was calculated by multiplying the universe of
   Forms 8872 by the weighted percentage of untimely Forms 8872 in our sample
   (2,777 * .0141 = 39). The weighted percentage is the sum of the proportions of each strata to
   the overall universe multiplied by the proportions of untimely Forms 8872 in each strata.
   The estimated amount of penalties that political organizations may be subject to for the
   untimely filing of Forms 8872 was calculated by multiplying the average weighted penalty
   dollars for untimely Forms 8872 by the universe of Forms 8872 ($156.40 * 2,777 =
   $434,322.80). The average weighted penalty is the sum of the proportions of each strata to
   the overall universe multiplied by the average dollar value of contributions and expenditures
   related to the untimely Forms 8872 in each strata.
3. Projected the results of Sample 2 (by strata) to each universe and, based on a 95 percent
   confidence level, an actual error rate of 11.5 percent, and a precision rate of +/- 4 percent,
   estimated 320 political organizations that filed incomplete Forms 8872 may be subject to
   more than $3.4 million in penalties based on an estimated $9.8 million in incomplete entries

                                                                                              Page 21
                  Improvements Have Been Made, but Additional Actions Could
                   Ensure That Section 527 Political Organizations More Fully
                                Disclose Financial Information



    during Calendar Year 2008. The estimated number of political organizations filing an
    incomplete Form 8872 was calculated by multiplying the universe of Forms 8872 by the
    weighted percentage of incomplete Forms 8872 in our sample (2,777 * .1153 = 320). The
    weighted percentage is the sum of the proportions of each strata to the overall universe
    multiplied by the proportions of incomplete Forms 8872 in each strata. The estimated
    amount of penalties that political organizations may be subject to for the incomplete filing of
    Forms 8872 was calculated by multiplying the average weighted penalty dollars for
    incomplete Forms 8872 by the universe of Forms 8872 ($1,236.63 * 2,777 = $3,434,121.50).
    The average weighted penalty is the sum of the proportions of each strata to the overall
    universe multiplied by the average dollar value of contributions and expenditures related to
    the incomplete Forms 8872 in each strata.
4. The overall total of $5.3 million in taxes and penalties was calculated by adding the amounts
   due from the untimely filing of Forms 8871, untimely filing of Forms 8872, and incomplete
   filing of Forms 8872 ($1,449,149.25 + $434,322.80 + $3,434,121.50 = $5,317,593.55).

Type and Value of Outcome Measure:
•   Taxpayer Burden – Actual; 2,954 taxpayers who received an untimely or missing
    Form 8872 notice without the relevant tax period from Calendar Year 2006 through
    Calendar Year 2008 (see page 7).

Methodology Used to Measure the Reported Benefit:
We reviewed notice responses and identified that some political organizations commented on the
lack of a relevant tax period on the untimely and missing Form 8872 notices. We obtained
reports of issued notice volumes for Calendar Years 2006 through Calendar Year 2008 and
totaled the number of notices issued: 2006 – 524 untimely and 272 missing Forms 8872 notices
were issued for a total of 796 notices; 2007 – 213 untimely and 482 missing Forms 8872 notices
were issued for a total of 695 notices; and 2008 – 330 untimely and 1,133 missing
Forms 8872 notices were issued for a total of 1,463 notices (796 + 695 + 1,463 = 2,954).

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 362 taxpayers who may have received a missing
    Form 8872 notice for a tax period they are not required to file a Form 8872 in
    Calendar Year 2008 (see page 7).

Methodology Used to Measure the Reported Benefit:
We selected a statistically valid sample of 203 Forms 8871 filed in Calendar Year 2008 from a
universe of 1,985 filings. During our case reviews, we determined that a missing
Form 8872 notice had been issued to 37 political organizations for tax periods prior to their
establishment. We projected with 95 percent confidence, an actual error rate of 18.2 percent, and
                                                                                           Page 22
                    Improvements Have Been Made, but Additional Actions Could
                     Ensure That Section 527 Political Organizations More Fully
                                  Disclose Financial Information



a precision rate of +/- 5 percent that 362 political organizations received an unnecessary missing
Form 8872 notice (37/203 * 1,985 = 362).

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; 22 taxpayers did not receive a missing Form 8872 notice
    for the last quarter of 2008 as required (see page 7).

Methodology Used to Measure the Reported Benefit:
We reviewed a statistically valid sample of 203 Forms 8871 filed in Calendar Year 2008 from a
universe of 1,985 filings. During our case reviews, we determined that 22 political organizations
did not file their Form 8872 for the quarter ending December 2008, but did not receive a missing
Form 8872 notice for this tax period.

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; 3,095 fewer entries were incomplete due in part to a
    prior Treasury Inspector General for Tax Administration recommendation (see page 4).

Methodology Used to Measure the Reported Benefit:
In a prior review, 2 the Treasury Inspector General for Tax Administration recommended that the
Director, EO, Tax Exempt and Government Entities Division, clarify the instructions for
Form 8872 to more clearly explain what information is required in Schedules A and B of
Form 8872. In Calendar Year 2007, the IRS issued updated Form 8872 instructions that
provided more detailed guidance on how to complete the Form. We compared the number of
incomplete entries identified in our previous review (4,382) to the number of incomplete entries
identified in this review (1,287) and determined that the previous recommendation aided political
organizations in filing more complete Forms 8872 (4,382 - 1,287 = 3,095).




2
 Additional Actions Are Needed to Ensure Section 527 Political Organizations Publicly Disclose Their Activities
Timely and Completely (Reference Number 2005-10-125, dated August 10, 2005).
                                                                                                         Page 23
    Improvements Have Been Made, but Additional Actions Could
     Ensure That Section 527 Political Organizations More Fully
                  Disclose Financial Information



                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 24
Improvements Have Been Made, but Additional Actions Could
 Ensure That Section 527 Political Organizations More Fully
              Disclose Financial Information




                                                       Page 25
Improvements Have Been Made, but Additional Actions Could
 Ensure That Section 527 Political Organizations More Fully
              Disclose Financial Information




                                                       Page 26
Improvements Have Been Made, but Additional Actions Could
 Ensure That Section 527 Political Organizations More Fully
              Disclose Financial Information




                                                       Page 27
Improvements Have Been Made, but Additional Actions Could
 Ensure That Section 527 Political Organizations More Fully
              Disclose Financial Information




                                                       Page 28
